                                   GIG Audit Report No. 09-01 





     AUDIT OF THE CONTROLS OVER 

PRESIDENTIAL LIBRARY TEXTUAL RECORDS 


          OIG Report No. 09-01 


            January 14, 2009 

                                                                           OIG Audit Report No. 09-01


EXECUTIVE SUMMARY

The Presidential Library system is comprised of twelve Presidential Libraries nationwide.
This network of libraries is administered by the Office of Presidential Libraries (NL),
which is part of the National Archives and Records Administration (NARA), located in
College Park, MD. Documents received from the President or his representatives, or
acquired from other sources, are to be added to the collection of the library and
responsible care is to be provided for them at all times. These are not traditional libraries,
but rather repositories for preserving and making available the papers, records, and other
historical materials of U.S. Presidents since Herbert Hoover.

In FY 2007 the Office ofInspector General (OIG) conducted an audit of the controls over
artifacts at Presidential Libraries. During the commencement of field work for that audit
the OIG received an inquiry from United States Senator Charles Grassley's office asking
us to conduct an audit of the actions taken by Presidential Libraries in order to protect
and preserve Presidential collections. This audit, focusing on the controls over
Presidential library textual records, was conducted to fulfill Senator Grassley's request
and compliments our previous audit on the controls over Presidential library artifacts.!

This audit revealed that controls over Presidential Library textual records, in general,
appear to be adequate and properly functioning. However, we found that controls can be
improved over a subset of records, known as Specially Protected Records (SPRs which                  i,
are subject to more stringent controls because they are deemed highly valuable and
vulnerable.

Auditors were able to identify and account for all textual records, including Specially
Protected Records, sampled at the five Presidential Libraries visited. Auditors observed
that libraries followed established guidelines governing the removal and tracking of these
records. This included the use of charge cards/out markers, withdrawal sheets, Freedom
ofInformation Act (FOIA) markers, and preservation copies, to identify the removal of
original material and record where it had been relocated within the library. Libraries also
maintained numerous electronic databases and files, including detailed FOIA case files,
that track records as they are moved throughout the library and aided in their location.
Auditors observed and tested research room controls and also found these to be adequate
and properly functioning.

Regarding SPRs the audit revealed (a) Presidential Libraries are not in compliance with
several requirements contained in NARA 1572, Security for NARA Holdings, which
provides guidance concerning the security and handling of SPRs; (b) the Security
Management Branch (NASS) has not inspected/certified SPR storage areas, and; (c)

I OIG Audit Report No. 08-01, Audit ofthe Process ofSafeguarding and Accountingfor Presidential
Library Artifacts (October 26,2007)
2 Specially Protected Records are those records that knowledgeable archival staff deem (1) especially
vulnerable to theft (because of high intrinsic or historic value); (2) in extremely fragile condition, or; (3)
likely targets of vandalism. Specially Protected Records are supposed to be removed from the general
collection (and replaced by a photocopy for research purposes), subject to greater security, and in some
instances controlled and accounted for at the item (e.g. document) level.


                                                        1

                                                                    OIG Audit Report No. 09-01


current guidance is not adequate for ensuring accountability of SPRs at Presidential
Libraries via sampling.

Like most textual records in NARA's custody, the majority of Presidential textual records
are not controlled and accounted for at the item level. The Office of Presidential
Libraries states that item level control would be considered archaic by archival standards
and require a massive amount of resources. The Presidential Libraries do exercise box
and folder level control through a number of descriptive tools such as lists of holdings,
accession registers, and various finding aids. NARA 1572 allows the highly valuable
subset of Presidential library textual records, known as SPRs, to also be controlled at the
box or folder level. In such instances, libraries may not be able to identify missing
individual SPRs. Management has stated that this is an inherent risk which they are
willing to accept. Finally, as noted in a previous OIG audit3 concerning Specially
Protected Records and Artifacts, while libraries have taken steps to identify SPRs, not all
SPR's have been identified. According to the prior audit this is an issue related to
resources and competing demands, and one which will not be remedied anytime soon.




3 DIG Audit Report No. 07-01, Audit ofManagement Controls for Safeguarding NARA 's Specially
Protected Records and Artifacts Stored in Secured Stacks, Vaults, and Safes (October 12, 2006).


                                                   2

                                                              OIG Audit Report No. 09-01


Background

Title 44 of the United States Code, Chapter 21, provides that the Archivist of the United
States may accept for deposit, in a Presidential archival depository, the papers and other
historical materials of a President or former President of the United States. Chapter 22
defines Presidential records as documentary material, or any reasonably segregable
portion thereof, created or received by the President or his immediate staff, or a unit or
individual of the Executive Office of the President whose function it is to advise and
assist the President, in the course of conducting activities which relate to or have an effect
upon the carrying out ofthe constitutional, statutory, or other official or ceremonial
duties of the President. Title 44 also provides that the Archivist of the United States shall
assume responsibility for the custody, control, preservation of, and access to, Presidential
Records and such records will be deposited in a Presidential archival depository (e.g.
Presidential Library). The Presidential Libraries Act of 1955 and 1986 establishes the
Presidential Library system and defines what the Archivist can accept in terms of a
facility and materials. Section C states that with respect to papers, documents, or other
historical materials deposited under this section, or otherwise, in a Presidential archival
depository, the Archivist may exercise all the functions and responsibilities otherwise
vested in him pertaining to Federal records or other documentary materials in his custody
or under his control.

The Assistant Archivist of Presidential Libraries is responsible for (1) Planning,
directing, and coordinating comprehensive programs for the acquisition, storage,
preservation, review, servicing, and disposal of Presidential records, Federal records, and
donated historical materials in Presidential Libraries and Presidential materials projects,
and; (2) Developing policies and procedures for the management and operation of
Presidential Libraries and Presidential materials projects. Presidential Libraries are
responsible for establishing physical and management controls over the records,
including the storage, arrangement, and security of historical records and the space
housing them. Guidelines and procedures for the operation of Presidential Libraries are
contained in the Presidential Libraries Manual (Libraries 1401).

In January 2006, NARA issued NARA 1572 - Security for NARA Holdings, establishing
policy on security for NARA holdings. The directive informs staff of measures NARA
must take to protect materials in the National Archives. It also identifies a subset of
textual records, referred to as Specially Protected Records (SPRs) - or those especially
vulnerable to theft, in extremely fragile condition, or likely targets of vandalism - and
provides an additional level of procedures and physical controls intended to better protect
these records.




                                              3

                                                             OIG Audit Report No. 09-01


Objectives, Scope, and Methodology

The objective of this audit was to determine if sufficient management controls exist to
safeguard and account for Presidential library textual records. The review was conducted
at Archives II in College Park, MD., with representatives from the Office of Presidential
Libraries (NL), Policy and Planning Staff (NPOL), and Space and Security Management
Division (NAS). We visited five Presidential Libraries and museums - George Bush,
William Jefferson Clinton, Richard Nixon (College Park, MD. location), Ronald Reagan,
and Franklin D. Roosevelt. We also augmented information obtained during our site
visits with questionnaire information obtained from all 12 Presidential Libraries. 4

To accomplish our objectives we reviewed applicable NARA guidance, including
Libraries 1401, Presidential Libraries Manual; NARA 101, NARA Organization and
Delegation ofAuthority; NARA 1571, Archival Storage Standards; NARA 1572,
Security for NARA Holdings; NARA 1702, Transporting Holdings in NARA 's Physical
and Legal Custody, and; Interim Guidance 1600-4, Research Application Procedures.
Additionally, we reviewed federal guidance contained in Title 44, Chapters 21 and 22 of
the United States Code. We reviewed performance measures related to records stored in
appropriate space as well as information developed by NL in response to an inquiry from
Senator Grassley's office. We reviewed internal operating procedures for reviewing
Presidential records and responding to Freedom oflnformation Act (FOIA) requests, and
performed limited sampling at the five libraries we visited. Judgmental sampling was
used to verify (1) records removed and relocated during the conduct of daily operations
could be accounted for and (2) procedural controls put into place to ensure accountability
were adequate and properly followed. We also met with staff from the Space and
Security Management Division to review documentation relating to Specially Protected
Records which they are required to maintain. Finally, we met with Policy and Planning
staff involved in the drafting ofNARA 1572 to gain clarification on specific
requirements in the guidance.

This performance audit was conducted in accordance with generally accepted
government auditing standards (GAGAS) between April 2008 and October 2008. These
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




4   See table in Appendix A for summary of responses.


                                                        4

                                                            OIG Audit Report No. 09-01



Controls Over Presidential Library Textual Records in General Appear to be Adequate

Our review revealed controls over textual Presidential records appear to be adequate and
properly functioning. At the five libraries visited, auditors were able to account for all
sampled textual records. In each case, auditors found appropriate documentation in place
of the removed material allowing for its identification and location. Auditors also
observed libraries maintained numerous databases used to identifY and track material
which had been removed from the original collection. Libraries covered by the
Presidential Records Act (PRA) - Ronald Reagan, William Jefferson Clinton, and
George Bush Libraries - maintained especially robust databases for tracking documents
disassociated from the original collection as a result of processing in response to Freedom
oflnformation Act (FOIA) requests. Auditors were able to use these databases to locate
and identifY sampled records.

Auditors also found the controls over research rooms appear to be adequate and properly
functioning. Specifically, auditors found research rooms were adequately staffed; had
adequate camera coverage; were arranged to allow line of sight observation of
researchers; had "clean" research room rules limiting what researchers could bring into
the research room; maintained current researcher application files, and; maintained a
current list of researchers banned from NARA research rooms.

Presidential Libraries Are Not Adhering to Security Guidelines for Specially Protected
Records

Our review revealed Presidential Libraries are not in compliance with certain aspects of
security guidelines established for especially valuable records defined as Specially
Protected Records (SPRs). This condition can be attributed to (1) a lack of oversight and
monitoring by both the Office of Presidential Libraries and the Space and Security
Division and (2) a lack of familiarity with, or understanding of, the established
requirements for each ofthe individual libraries. NARA 1572, Security for NARA
Holdings, establishes policy and procedures for securing NARA holdings, especially
material needing special protection because it has been identified as especially valuable
or vulnerable. As a result of this condition, NARA lacks assurance the subset of
Presidential records identified as especially valuable or vulnerable are being safeguarded
in a manner commensurate with their status.

SPRs are defined as those considered especially vulnerable to theft, deterioration, or
vandalism and, as such, are subject to more rigorous security. SPRs encompass
documents such as Franklin Roosevelt's "Day oflnfamy" speech containing his
handwritten notes and changes, John F. Kennedy's handwritten draft of his 1961
Inaugural Address in which he stated "Ask not what your country can do for you ...", and
the annotated speech card Ronald Reagan used to deliver his remarks at the Brandenburg
gate in 1987 (see Appendix B for photos of records illustrative of SPRs).




                                            5

                                                                    OIG Audit Report No. 09-01


During library site visits the auditor found libraries were not in compliance with
requirements pertaining to the control of SPRs contained in NARA 1572. Specifically,
the auditor found Presidential Libraries had not:
    • 	 Nominated for background checks selected staffwho required access to vaults or
        other specially protected areas (nominations to be sent to NASS);
    • 	 Reported their storage methods, exact container locations, and names of staff with
        access to Specially Protected holding to NASS, and;
    • 	 Consistently maintained itemized lists of "unique record items."

As a result of these observations the auditor sought to obtain from NASS documentation
which they are required by NARA 1572 to maintain. The auditor found NASS did not
have documentation nominating staff for background checks from any of the libraries and
only one (-redacted under FOIA exemption "high" b(2)-) had reported their storage
methods and exact container locations. Additionally, the auditor obtained program
review checklists for five libraries for FY 2007 and FY 2008 and found two had
erroneously reported they were in compliance with the requirement to report storage
methods and locations and one erroneously reported they were in compliance with the
requirement to report personnel with access to Specially Protected Areas. On August 21,
2008, during the conduct of this audit, the auditor was informed by NASS that three
libraries had submitted the required information and a fourth, --------------------------------­
--------------------------------------redacted under FOIA exemption "high" b(2)----------------


Ofthe five libraries visited, three did not maintain an itemized list of "unique record
items" in accordance with guidance established for controlling SPRs. The lack of an
itemized list complicates efforts to control and account for SPRs and made it difficult and
time consuming for the auditor to determine the universe of SPRs from which to sample.

The auditor also surveyed all twelve Presidential Libraries and followed up with NASS
and found 5
   • 	 Three (25%) had nominated for background checks or reported staff with access
       to SPRs to NASS (at the commencement of this audit no libraries were in
       compliance)
   • 	 Five (42%) had reported their storage methods and exact container locations to
       NASS (at the commencement of this audit only one library was in compliance)
   • 	 Five (42%) reported that they maintained an itemized list of SPRs.

The lack of compliance with NARA policy for safeguarding Specially Protected Records
is attributable to a lack of oversight and monitoring by both the Office of Presidential
Libraries and the Space and Security Management Division; and unfamiliarity with the
guidance at the individual Presidential Libraries. Furthermore, neither NARA 1572 nor
NASS guidance defined the level ofbackground checks required for staff to access SPR
storage areas and the frequency with which background checks should occur.



5   A table summarizing survey responses can be found in Appendix A - Survey Summary.


                                                   6

                                                             OIG Audit Report No. 09-01


NARA 1572 requires the Office of Presidential Libraries to (1) develop and implement
standard operating procedures for each storage area where materials requiring special
protection are kept, and; (2) nominate for background checks selected staff required to
access vaults or other specially protected areas.

Furthermore, NARA 1572.12 (b) states that custodial units report their storage methods
and exact container locations to NAS to compile and maintain a central list of all
specially protected storage areas and containers. NARA 1572.12 (d) requires the creation
and maintenance of an itemized list of documents needing special protection, and further
requires the list to be secured and access to it controlled, and; NARA 1572.18 states the
names ofpersons with access to specially protected areas are to be forwarded to NASS.

Required proGedures, intended to safeguard records identified as highly valuable and
therefore more likely targets oftheft, have not been implemented. As a result, NARA
lacks assurance this subset of Presidential records (e.g. Specially Protected Records) are
being maintained and safeguarded in a manner consistent with their status.

Recommendation 1

The Assistant Archivist for Presidential Libraries should ensure all libraries, in
accordance with NARA 1572:

       a. develop and implement standard operating procedures for each records storage
       area where materials requiring special protection are kept;

       b. nominate selected staff for background checks required to access vaults or
       other specially protected areas (and submit the list to NASS);

       c. report storage methods and exact container locations to NASS;

       d. report the names of staff with access to specially protected records to NASS,
       and;

       e. maintain inventories of SPRs.

Management Response

Management concurred with our recommendation. Specific action on the
recommendation will be deferred until a comprehensive revision ofNARA 1572 is
completed.




                                              7

                                                           OIG Audit Report No. 09-01


Recommendation 2

Either the Director of the Policy and Planning Staff (NPOL) should revise NARA 1572 to
include specific information concerning the timing and level of background checks
required of staff with access to SPR storage areas, or the Assistant Archivist for
Administrative Services (NA) should ensure the Security Management Branch (NASS)
develop standard operating procedures for SPR background checks to augment current
guidance.

Management Response

Management concurred with our recommendation. Specific action on the
recommendation will be deferred until a comprehensive revision ofNARA 1572 is
completed.



The Security Management Branch (NASS) has not Conducted Inspections of Specially
Protected Records Holding Areas

Our review revealed the Security Management Branch (NASS) had not conducted
inspections of any Specially Protected Records holding areas since the establishment of
the requirement in January 2006. NASS attributed this to a lack of resources and
competing demands. While NARA 1572 requires NASS to conduct such inspections, it
does not provide a time frame in which such inspections should occur. As a result of not
inspecting SPR holding areas NARA cannot ensure SPRs are adequately safeguarded.

Based on site visits, questionnaire responses, and a review ofNASS records, the auditor
found NASS had not conducted inspections of SPR holding areas. Furthermore, as
previously noted in this report, information concerning SPR storage methods and
locations had not been reported by the libraries to NAS (the division in which NASS is
located). NASS has developed a checklist for inspecting SPR holding areas and
compliance with NARA 1572, however, a NASS management official informed the
auditor that due to resource constraints and competing demands he was unsure when such
inspections would occur or be completed. NARA 1572.13 (e) requires NASS conduct
inspections of SPR storage areas as part of the cycle of security and workplace
inspections. While this does not specify a timeframe in which such inspections must
occur, the Office oflnspector General believes that initial certifications of SPR storage
areas should occur within a reasonable timeframe in order to ensure that SPR storage
areas comply with NASS guidelines. While we acknowledge additional demands
recently placed upon NASS by HSPD-12 and preparations for the Bush W. Bush library,
the requirement for establishment and inspection of SPR storage areas has been in place
since January 2006. IfNASS is unable to physically conduct inspections ofSPR storage
areas in the near future then perhaps initial certifications could be conducted remotely,
with libraries sending pictures of their storage areas and descriptions of their




                                            8

                                                            OIG Audit Report No. 09-01


construction, access controls, locations, and any other information necessary for NASS to
review and certify the areas remotely.

As a result of the lack of inspections and initial certifications NARA cannot be certain
SPRs are being maintained in a secure environment that meets NASS standards and that
SPRs are afforded a level of protection commensurate with their status.

Recommendation 3

The Assistant Archivist for Administrative Services (NA) should ensure that the Security
Management Branch (NASS) conduct reviews and initial certifications of SPR storage
areas in a timely manner. Criteria for the evaluation of SPR storage areas should be
clearly articulated and the method by which the evaluations will occur (if other than
inspection) should be documented. A provision should also be made ensuring results are
clearly documented and transmitted to the library, including any recommended remedial
action.

Management Response

Management concurred with our recommendation. Specific action on the
recommendation will be deferred until a comprehensive revision ofNARA 1572 is
completed.



Presidential Libraries Do Not Use Sampling to Account for Specially Protected Records

The Office of Presidential Libraries (NL) does not conduct inspections to verify and
account for Specially Protected Records. Unlike the Office of Regional Records Services
(NR) and Office of Records Services, Washington D.C. (NW), Presidential Libraries are
not required by NARA 1572 to conduct annual inspections and sampling to account for a
percentage of their SPRs. As a result, SPRs in NL are not subject to the same level of
accountability and control as those in NR and NW.

NARA 1572 exempted NL from the requirement they inspect and account for a
percentage of their SPRs identified as "unique record items" on an annual basis. The
rationale for this decision was that (1) Presidential Libraries contain an extremely high
volume of materials having a direct association with a former president (intended to
convey that a disproportionately high volume of library textual records would be
classified as Specially Protected Records), and (2) the materials have a limited exposure
to researchers and staff compared to Washington, D.C. area holdings. The auditor was
unable to compare the volume of SPRs identified at Presidential Libraries to those at
regional archives or the locations in and around Washington, D.C. because most
Presidential Libraries are not maintaining itemized inventory lists in accordance with
NARA guidance.




                                            9
                                                                       OIG Audit Report No. 09-01


The OIG believes similar controls should be exercised over SPRs throughout the agency
(i.e. regardless ofwhether they reside in NW, NR, or NL) for two reasons:
     1. 	 The definition of what constitutes an SPR is the same throughout the agency,
          regardless of the office in which the textual records are located, and
     2. 	 Presidential Libraries are required to conduct annual inspections of 100% of their
          museum items (e.g. artifacts) identified as especially vulnerable to theft (e.g.
          analogous to the definition of a Specially Protected Record)

While the universe oftextual records identified as especially valuable/vulnerable is
ostensibly larger than the universe of museum items meeting the same criteria, we believe
this may support the notion of inventorying a percent of the SPRs annually (at a rate
lower than the 100% annual inventory of museum items, which are less numerous), but
does not provide a rationale for completely excluding Presidential library SPRs from
annual inventorying.

As a result of current conditions, SPRs are not subject to similar controls across the
agency; highly valuable textual records are not subject to similar controls as highly
valuable museum objects within NL, and; NL lacks a mechanism for proactively
inspecting and inventorying, albeit on a sampling basis, those Presidential textual records
identified as especially vulnerable to theft.

Recommendation 4

The Director Policy and Planning Staff and Assistant Archivist for Presidential Libraries
should work together to revise NARA 1572.16 to require that NL:

           a. perform annual inspections of each specially protected area and prepare an
           annual written report documenting the results (to be transmitted to the Office
           Head), and

           b. account for a certain percent oftheir "unique record item" SPRs annually.6


Management Response

Management concurred with our recommendation. Specific action on the
recommendation will be deferred until a comprehensive revision ofNARA 1572 is
completed.




6   In order to accomplish recommendation 4.b., recommendation I.e. must fIrst be resolved.


                                                     10
                                                                              DIG Audit Report No. 09-01


                                                                                             APPENDIX A
                                                                                               Page 1 of 1

          NOTE: The "X's" in this appendix represent redactions done under FOIA
          Exemption "high" b(2) to protect predominantly internal information the disclosure
          of which significantly risks circumvention of agency regulations or statutes.

           Presidential Library Compliance with Security Guidance for Specially Protected Records

NL Compliance with Guidance for Safeguarding Specially Protected Records
Library                   Storage methods      Received NASS         Staff authorized   Received NASS      Maintain
                          and container        concurrence ­         to access SPRs     concurrence ­      itemized list of
                          locations reported   NASS                  reported to        Background check   SPRs
                          to NASS              inspected!certified   NASS               performed
                                               SPR storage area
George W. Bush            XX                   XX                    XX                 XX                 XX
Jimmy Carter              XX                   XX                    XX                 XX                 XX
William J. Clinton        XX                   XX                    XX                 XX                 XX
Dwight D. Eisenhower      XX                   XX                    XX                 XX                 XX
Gerald Ford Library       XX                   XX                    XX                 XX                 XX
Herbert Hoover            XX                   XX                    XX                 XX                 XX
Lyndon B. Johnson         XX                   XX                    XX                 XX                 XX
John F. Kennedy           XX                   XX                    XX                 XX                 XX
Richard M. Nixon          XX                   XX                    XX                 XX                 XX
Ronald Reagan             XX                   XX                    XX                 XX                 XX
Franklin D. Roosevelt     XX                   XX                    XX                 XX                 XX
Harry S. Truman           XX                   XX                    XX                 XX                 XX




          x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
          XXXXXXX.
          x On June 4, 2008, auditor met with NASS to review any information they had received from the
          Presidential Libraries in accordance with NARA 1572 requirements. XXXXXXXXXXXXXXX
          XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
          XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
          XXXXXX.
                                                    OIG Audit Report No. 09-01



                                                               APPENDIX B

                                                                 Page 1 of 3



    Examples of Specially Protected Records




     Franklin Roosevelt’s “Day of Infamy”

Speech (page 1 only) with handwritten annotations




     National Archives and Records Administration
                                                          OIG Audit Report No. 09-01



                                                                     APPENDIX B

                                                                       Page 2 of 3



          Examples of Specially Protected Records




    Page from President Kennedy’s 1961 Inaugural Speech

in which he says “Ask not what your country can do for you…”





           National Archives and Records Administration
                                                        OIG Audit Report No. 09-01



                                                                   APPENDIX B

                                                                     Page 3 of 3



        Examples of Specially Protected Records




Speech card used by Ronald Reagan to deliver his remarks
                at the Brandenburg Gate




         National Archives and Records Administration
                                                                                       Appendix 4, Page 1 of 2

                         National Archives and Records Administration
                                                                                           8601 Adelphi Road
                                                                          College Park, Maryland 20740-6001


Date: 	         January 7, 2009

To: 	           Paul Brachfeld, Inspector General

From: 	         Sharon Fawcett, Assistant Archivist Presidential Libraries

Subject: 	      Comments on OIG Draft Report 09.;.01, Audit ofthe Controls over Presidential Library
                Textual Records


                NL takes exception to a number of aspects of the draft textual audit report. The audit
                demonstrated that NL controls over its holdings are sound. In every instance, during site
               visits; the auditor was able to track and locate materials. The auditor found research room
               operations compliant with policy and that specially protected records (SPRs) were maintained
               in segregated storage areas within already secure stacks with limited access. Yet the auditor
               states that NARA lacks assurance that SPRs are cared for appropriately because some of our
               libraries do not maintain itemized lists of voluminous SPR holdings. NL has reasonable
               assurance that all textual holdings are maintained appropriately and securely. Absolute
               assurance is never possible.

               We are pleased that the auditor discovered and noted in the draft report that controls are in
               place for caring for our holdings. We do not agree that the lack of an itemized list
               "complicates efforts to control and account for SPRs," or makes it "difficult and time
               consuming... to determine the universe of SPRs." Presidential libraries have long segregated
              materials requiring special protection, even before such a designation came into use. Libraries
              do maintain inventories of holdings. Parallel folders containing SPRs are easily tracked back
              to their original locations where copies identified as such are located. Additionally,
              inventories at the box and folder level do provide a universe of holdings from which to
              measure quantities. NARA's Presidential libraries are able to trace documents to the original
              locations and vice versa even without itemized lists.

              We generally concur with the four recommendations in the draft report, but cannot adequately
              address them until a comprehensive revision ofNARA 1572, Security for NARA Holdings, is
              completed. At that time, we would like to revisit these recommendations. Specifically, the
              argument that artifact holdings are inventoried annually at Libraries does not correlate to
             textual holdings. Applying the same methodology to both types of holdings results in the
              same mistakes NARA has made throughout its history by conflating different program
             specializations. What applies to one doesn't necessarily apply to the other. Itemized control
             is standard operating procedure in the care and safeguarding of artifacts. This is not true of
             textual holdings. We expect that the update ofNARA 1572 noted above will result in some
             requirement for annual inventories ofNL textual records. It is not feasible to expect that it
             will be at the same level as artifact holdings or the level of textual inventories done by NR or
             NW.
                                                                     Appendix 4, Page 2 of 2


We will not submit a formal action plan for this audit, but will provide periodic updates on the
status ofNARA 1572 through NPOL.




SHARON FAWCETT
Assistant Archivist for Presidential Libraries

cc: NPOL
